<html>
<title> - DISRUPTER SERIES: UPDATE ON IOT OPPORTUNITIES AND CHALLENGES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
      DISRUPTER SERIES: UPDATE ON IOT OPPORTUNITIES AND CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON DIGITAL COMMERCE AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2017

                               __________

                           Serial No. 115-39
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                        
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-707 PDF              WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                            


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                                 

        Subcommittee on Digital Commerce and Consumer Protection

                         ROBERT E. LATTA, Ohio
                                 Chairman
GREGG HARPER, Mississippi            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BEN RAY LUJAN, New Mexico
MICHAEL C. BURGESS, Texas            YVETTE D. CLARKE, New York
LEONARD LANCE, New Jersey            TONY CARDENAS, California
BRETT GUTHRIE, Kentucky              DEBBIE DINGELL, Michigan
DAVID B. McKINLEY, West Virgina      DORIS O. MATSUI, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            JOSEPH P. KENNEDY, III, 
LARRY BUCSHON, Indiana                   Massachusetts
MARKWAYNE MULLIN, Oklahoma           GENE GREEN, Texas
MIMI WALTERS, California             FRANK PALLONE, Jr., New Jersey (ex 
RYAN A. COSTELLO, Pennsylvania           officio)
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     1
    Prepared statement...........................................     2
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     5
    Prepared statement...........................................     6

                               Witnesses

William S. Marras, Ph.D., Executive Director and Scientific 
  Director, Spine Research Institute, The Ohio State University..     8
    Prepared statement...........................................    11
Gary D. Butler, Ph.D., Founder and Chief Executive Officer, 
  Camgian Microsystems Corporation...............................    15
    Prepared statement...........................................    17
William Kuhns, President, Vermont Energy Control Systems LLC.....    22
    Prepared statement...........................................    24
Cameron Javdani, Director, Sales and Marketing, Louroe 
  Electronics....................................................    25
    Prepared statement...........................................    27
Mark Bachman, Ph.D., Chief Technical Officer, Integra Devices LLC    31
    Prepared statement...........................................    33
Peter B. Kosak, Executive Director, Urban Active Solutions, 
  General Motors Company.........................................    44
    Prepared statement...........................................    46

                           Submitted Material

Letter of June 13, 2017, from Marc Rotenberg, President, and 
  Caitriona Fitzgerald, Policy Director, Electronic Privacy 
  Information Center, to Mr. Latta and Ms. Schakowsky, submitted 
  by Ms. Schakowsky..............................................    73


      DISRUPTER SERIES: UPDATE ON IOT OPPORTUNITIES AND CHALLENGES

                              ----------                              


                         TUESDAY, JUNE 13, 2017

                  House of Representatives,
     Subcommittee on Digital Commerce and Consumer 
                                        Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:35 a.m., in 
Room 2123, Rayburn House Office Building, Hon. Robert Latta 
(chairman of the subcommittee) presiding.
    Members present: Representatives Latta, Harper, Burgess, 
Upton, Lance, McKinley, Bilirakis, Bucshon, Mullin, Costello, 
Schakowsky, Cardenas, Dingell, Welch, and Pallone (ex officio).
    Staff present: Blair Ellis, Press Secretary/Digital 
Coordinator; Melissa Froelich, Counsel, Digital Commerce and 
Consumer Protection; Adam Fromm, Director of Outreach and 
Coalitions; Giulia Giannangeli, Legislative Clerk, Digital 
Commerce and Consumer Protection/Communications and Technology; 
A.T. Johnston, Senior Policy Advisor, Energy; Bijan Koohmaraie, 
Counsel, Digital Commerce and Consumer Protection; Katie 
McKeough, Press Assistant; Alex Miller, Video Production Aide 
and Press Assistant; Paul Nagle, Chief Counsel, Digital 
Commerce and Consumer Protection; Mark Ratner, Policy 
Coordinator; Madeline Vey, Policy Coordinator, Digital Commerce 
and Consumer Protection; Evan Viau, Staff Assistant; Michelle 
Ash, Minority Chief Counsel, Digital Commerce and Consumer 
Protection; Jeff Carroll, Minority Staff Director; Lisa 
Goldman, Minority Counsel; and Caroline Paris-Behr, Minority 
Policy Analyst.
    Mr. Latta. Good morning. I would like to call the 
Subcommittee on Digital Commerce and Consumer Protection to 
order. And the Chair now recognizes himself for 5 minutes for 
an opening statement.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    And good morning again. And today we continue the Disrupter 
Series with our focus on the Internet of Things. Most of us 
just came from the Rayburn forum where our panelists and 17 
other companies and universities showcased the important work 
they are doing in this sector. Members and staff saw firsthand 
the innovative ways companies and universities are using the 
Internet of Things to better meet consumer demands.
    I want to thank all of you who participated in this event. 
And I also want to thank our hard-working staffs who put this 
all together, because without their hard work it would not have 
occurred.
    The Internet of Things, or IoT, loosely refers to a network 
of connected devices, services, and objects that collect and 
exchange information. And new devices are being connected all 
the time. Today, for example, C-SPAN is tapping into the 
Internet of Things by testing a new and innovative 360 degree 
HD camera right here in our committee hearing room. While this 
footage will not be publicly available, this is just one more 
illustration of how connectivity in this day and age is used to 
collect, share, and exchange data in real time.
    These connected devices offer businesses and consumers 
significant benefits. For businesses, IoT is improving 
efficiency and increasing productivity for all, while helping 
to drive down overhead costs. For consumers, IoT provides 
quick, responsive services, enhanced experiences, and 
convenience.
    We are seeing IoT revolutionize a variety of industries and 
optimize everything from manufacturing and home appliances to 
automobiles and healthcare.
    Specifically, in the healthcare industry IoT is being used 
to both enhance preventive measures as well as streamline 
treatment for other health issues. Joining us on the panel 
today from my home State of Ohio is Dr. Marras. And Dr. Marras 
is Executive Director and Scientific Director of the Spine 
Research Institute at The Ohio State University, and plays an 
important role in the IoT and healthcare space.
    His team is using IoT in a variety of ways to help diagnose 
spine disorders, improve effective back treatments, and 
identify occupational tasks that cause back injury so that 
businesses adjust those tasks to reduce the on-the-job 
injuries.
    I look forward to hearing more about the work that our 
panelists are doing in the IoT space and how IoT has improved 
the important work you are all doing. I also look forward to 
exploring how we, as policymakers, can continue to promote IoT 
and address any regulatory obstacles or barriers you foresee 
that may stifle innovation or otherwise hinder the industry.
    And, again, I want to thank you all for joining us today.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Good morning and welcome to the Digital Commerce and 
Consumer Protection subcommittee hearing. Today we continue the 
Disrupter Series with our focus on the Internet of Things. We 
just came from the Rayburn Foyer where our panelists and 17 
other companies and universities showcased the important work 
they're doing in this space. Members and staff saw first-hand 
the innovative ways companies and universities are using the 
Internet of Things to better meet consumer demands. I want to 
thank you all as well as everyone who participated in the 
showcase.
    The Internet of Things, or IoT, loosely refers to a network 
of connected devices, services and objects that collect and 
exchange information. And new devices are being connected all 
the time. Today, for example, CSPAN is tapping into the 
Internet of Things by testing their new and innovative 360-
degree HD camera right here in this very room. While this 
footage will not be publicly available, this is just one more 
illustration of how connectivity in this day in age is used to 
collect, share, and exchange data in real time.
    These connected devices offer businesses and consumers 
significant benefits. For businesses, IoT is improving 
efficiency and increasing productivity all while helping drive 
down overhead costs. For consumers, IoT provides quick 
responsive services, enhanced experiences and convenience. We 
are seeing IoT revolutionize a variety of industries and 
optimize everything from manufacturing and home appliances to 
automobiles and healthcare.
    Specifically, in the healthcare industry, IoT is being used 
both to enhance preventative measures as well as streamline 
treatment for other health issues. Joining us on the panel 
today from my home State of Ohio is Dr. Marras. Dr. Marras is 
the Executive Director and Scientific Director of the Spine 
Research Institute at The Ohio State University and plays an 
important role in the IoT and healthcare space. Dr. Marras and 
his team are using IoT in a variety of ways to help diagnose 
spine disorders, improve effectiveness of back treatments and 
identify occupational tasks that cause back injuries so that 
businesses adjust those tasks to reduce on-the-job injuries.
    I look forward to hearing more about the work our panelists 
are doing in the IoT space and how IoT has improved the 
important work you all are doing. I also look forward to 
exploring how we, as policymakers, can continue to promote IoT 
and address any regulatory obstacles or barriers you all 
foresee that may stifle innovation or otherwise hinder the 
industry. Thank you all for joining us today.

    Mr. Latta. And is there anyone on our side wishing to claim 
my additional time? I recognize the gentleman, the vice 
chairman of the subcommittee, for the remaining time.
    Mr. Harper. Thank you, Mr. Chairman, for calling this 
hearing today on the Internet of Things, or IoT. And I would 
like to extend a warm welcome to Dr. Gary Butler from my 
hometown of Pearl, Mississippi, on the panel this morning. Dr. 
Butler is the founder, CEO, and chairman of Camgian 
Microsystems, headquartered in my district, in Starkville, 
Mississippi.
    Camgian is driving information and innovation in the 
industrial IoT world and pioneering efforts to use cutting edge 
solutions to help address our growing infrastructure problems 
in the United States. Camgian's award-winning IoT product 
Egburt, released in October of 2014, is an end-to-end software 
application specifically designed to intelligently manage large 
volumes of complex sensing and processing operations.
    The distributed computing feature of the Egburt design, 
otherwise known as edge computing or fog computing, utilizes 
multi-sensor and information processing technologies to deliver 
real-time, actual intelligence to users for the network's edge. 
Egburt was designed to provide commercial and Government 
customers a broad range of services for remote monitoring 
applications such as smart infrastructure and condition-based 
maintenance.
    As an example, Egburt powers the new intelligent decision 
support, or IDS, systems for the U.S. Army Corps of Engineers 
which is currently installed on the Markland Lock and Dam on 
the Ohio River.
    I'm looking forward to hearing from each of the witnesses 
today to learn more about how IoT is improving our quality of 
life, safeguarding the flow of commerce, and strengthening our 
economy.
    With that, I yield back.
    Mr. Latta. Thank you. The gentleman yields back.
    At this time the Chair now recognizes for 5 minutes the 
gentlelady from Illinois, the ranking member of the 
subcommittee.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. I want to thank Chairman Latta and the 
committee staff for organizing this morning's Internet of 
Things Showcase. I was so excited about what was happening. I 
was a little bit late; I'm sorry. But it was so impressive to 
see what these young people are doing.
    I was especially proud to welcome students from 
Northwestern University, which is located in my congressional 
district. The Garage at Northwestern is a hub for 
entrepreneurship and innovation that brings together students 
and faculty across disciplines. In a given quarter, The Garage 
is home to some 60 student-founded start-ups and it prepares 
students to take those start-ups to the next level.
    Each year, The Garage holds the venture cap competition 
where students pitch their start-ups. The Northwestern students 
at our Showcase this morning were semi-finalists in the 2017 
competition. They are not there in the audience yet. I hope 
they come.
    The PedalCell start-up, founded by Northwestern freshmen 
Vishaal Mali and Christopher Aigner, lets you charge your 
telephone, your cell phone as you pedal your bike; an energy-
efficient way to stay connected as you move through the day.
    LifeMotion, founded by mechanical engineering Ph.D. Michael 
Young, is helping oral cancer survivors restore mouth function. 
It's a wearable rehabilitation device that logs information for 
the patient and physician to improve health outcomes.
    These are just two great examples of how innovation can 
benefit our country. Research universities like Northwestern 
are critical to the future of innovation in the country. And I 
am working with my congressional colleagues to provide the 
education and research funding necessary to help this 
innovation to continue.
    Here they are, our students, our innovators for both the 
PedalCell and LifeMotion.
    Our panel today is made up wholly of participants in our 
IoT Showcase. I talked with some of you earlier, and I look 
forward to hearing more about your work. You saw the showcase 
at the Showcase, the enormous potential for the Internet of 
Things. I am interested to hear about the challenges our 
witnesses have faced as we are familiar with in the 
subcommittee the make-up of connected devices have to think 
about user experience, privacy, and security, as well as all 
the issues that other entrepreneurs deal with.
    We value your perspective as we determine how the Federal 
Government can help consumers realize the full benefit of your 
technologies. I want to thank you for joining us today.
    And now I yield to Congressman Cardenas the remainder of my 
time.
    Mr. Cardenas. Thank you, Ranking Member Schakowsky. And 
also thank you, Mr. Chairman, for holding this committee. And I 
would like to thank all of the witnesses for coming here today. 
It is exciting to hear from so many great American companies 
that are providing technology and jobs of today and tomorrow.
    I am especially proud of Cameron Javdani from Louroe 
Electronics. Came all the way from the San Fernando Valley, my 
district, which has been my home my entire life. And thank you 
for representing us here in this hearing.
    Southern California remains to this day one of the great 
American hubs of innovation in manufacturing. And Louroe 
Electronics from my district not only embodies this legacy but 
also takes its products beyond Los Angeles and actually to the 
rest of the country and to the world. Louroe's state-of-the-art 
audio monitoring products are used in almost 60 countries 
worldwide, and which is especially impressive for a company 
that is actually a small company. And they are constantly 
evolving to incorporate technologies like the integrated 
network connectivity behind the Internet of Things, all to help 
security professionals keep our communities safe.
    In fact, in 2015, Louroe Electronics received the 
President's E Award for exports, the highest honor given to a 
United States exporter corporation. I used to own my own little 
small business at one time, so I know what it is like to be in 
your shoes.
    I visited Louroe Electronics more than once. I have seen 
firsthand their commitment to their employees and to our 
community. Louroe's CEO, Mr. Richard Brent, as a matter of fact 
I ran into him at the airport yesterday, and I said, ``You 
going to DC?'' He says, ``No. I am going to Dallas.'' He is a 
leader not only in our community but a perfect example of what 
it is to be a contributor to knowledge and information and 
innovation, not just for a local community but for the country 
and the world.
    Again, I am also proud to say that Louroe Electronics is 
here as part of the presentation today.
    And with the interests of time, once again, Mr. Chairman 
Latta, thank you so much, and Ranking Member Schakowsky, for 
holding this hearing. I yield back.
    Ms. Schakowsky. I yield my time.
    Mr. Latta. Thank you very much. The gentlelady yields back 
the balance of her time.
    The chairman of the full committee is not here at this 
time. And we will recognize the gentleman from New Jersey, the 
ranking member of the full committee, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you. Today this committee held, is 
holding its second showcase of new and emerging technological 
products connected to the Internet. The Internet of Things 
encompasses everything from an Internet-connected fitness 
tracking device that counts and records the steps of an 
exercise-conscious person, to a fully autonomous automobile. 
And today we had the opportunity to see a range of products 
that may help consumers in a variety of ways.
    I am particularly interested in some of the products that 
reduce our use of fossil fuels. Some IoT devices are helping 
homeowners ensure their homes are more energy efficient, 
building owners are improving the operational efficiencies of 
escalators and elevators.
    As we learned at the Smart Committee hearing, cities are 
using smart technologies to save precious water resources and 
reduce energy usage.
    In my district, the city of Asbury Park is installing 
sensors that can remotely control the boardwalk's lighting, 
which the city expects will help save money on its electricity 
bills. Using less energy means using less fossil fuel.
    And as we have discussed throughout the Disrupter Series, 
technological advances are making financial transactions more 
convenient and efficient, healthcare more accessible, and our 
roads more safe. The Internet of Things has penetrated all 
sectors of the economy. And because technological changes have 
come to all aspects of our lives, we are all faced with the 
challenges of integrating technology. And particularly, I must 
mention the challenge of cybersecurity.
    At last week's hearing on healthcare cyberthreats, I 
highlighted that our critical healthcare systems are at risk 
for attack. Our health records are part of the Internet of 
Things, as are many of our medical devices. Right now another 
one of our subcommittees is having an informational hearing on 
cybersecurity risk to wireless technologies. And I hope that 
we, as a committee, will move beyond the informational review 
and start considering real legislative solutions such as the 
Democratic bills that have been introduced to address these 
problems.
    After all, it sounds great to have your food delivered by a 
robot or drone, but we do not want that robot or drone hacked. 
And while sometimes these cybersecurity threats sound like they 
come from a science fiction movie, incidents like the Russian 
hacking and the interference in our elections demonstrates that 
the threat is real. Creators and manufacturers of Internet-
connected technology must take responsibility for mitigating 
this threat.
    So I implore everyone working in this space, including our 
distinguished witnesses today, to ensure that cybersecurity and 
data security are built into your products from day one. That 
way, consumers will have the confidence to buy and use these 
products knowing protections are in place.
    And also be mindful of consumer privacy. In the age of big 
data, it's tempting to collect more than you need. The more you 
collect, the more you must secure. And consumers have already 
repeatedly told us that they want control of who has access to 
their data.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Good morning. Today, this committee held its second 
showcase of new and emerging technological products connected 
to the internet.
    The Internet of Things--or IoT--encompasses everything from 
an internet connected fitness tracking device that counts and 
records the steps of an exercise-conscious person to a fully 
autonomous automobile. And today we had the opportunity to see 
a range of products that may help consumers in a variety of 
ways.
    I am particularly interested in some of the products that 
reduce our use of fossil fuels. Some IoT devices are helping 
homeowners ensure their homes are more energy efficient. 
Building owners are improving the operational efficiencies of 
escalators and elevators. As we learned at the Smart 
Communities hearing, cities are using smart technologies to 
save precious water resources and reduce energy usage.
    In my district, the city of Asbury Park is installing 
sensors that can remotely control the boardwalk's lighting, 
which the city expects will help save money on its electricity 
bills. Using less energy means using less fossil fuel.
    As we have discussed throughout the disruptor series, 
technological advances are making financial transactions more 
convenient and efficient, healthcare more accessible, and our 
roads more safe. The Internet of Things has penetrated all 
sectors of the economy.
    And because technological changes have come to all aspects 
of our lives, we are all faced with the challenges of 
integrating technology. In particular, I must mention the 
challenge of cybersecurity. At last week's hearing on 
healthcare cyber-threats, I highlighted that our critical 
healthcare systems are at risk for attack. Our health records 
are part of the Internet of Things, as are many of our medical 
devices. Right now, another one of our subcommittees is having 
an informational hearing on cybersecurity risks to wireless 
technologies. I hope we as a committee will move beyond the 
informational review and start considering real legislative 
solutions such as the Democratic bills that have been 
introduced to address these problems.
    After all, it sounds great to have your food delivered by a 
robot or drone, but we do not want that robot or drone hacked. 
And while sometimes these cybersecurity threats sound like they 
come from a science fiction movie, incidents like the Russian 
hacking and the interference of our elections demonstrates that 
the threat is real. Creators and manufacturers of internet-
connected technology must take responsibility for mitigating 
this threat.
    I implore everyone working in this space, including our 
distinguished witnesses today, to ensure that cybersecurity and 
data security are built into your products from day one. That 
way, consumers will have the confidence to buy and use these 
products knowing protections are in place.
    Also, be mindful of consumer privacy. In the age of big 
data, it is tempting to collect more than you need. The more 
you collect, the more you must secure. Consumers have also 
repeatedly told us that they want control of who has access to 
their data.

    Mr. Pallone. I yield the balance of my time to Mr. Welch.
    Mr. Welch. Thank you, Mr. Pallone. I want to just welcome 
Bill Kuhns from North Ferrisburgh, Vermont, U.S. world 
headquarters of the Vermont Energy Control Systems. But that is 
a great company. And you have got your display downstairs and 
presented it to me.
    But Mr. Kuhns has 20 years of experience in aerospace. He 
started a small company in North Ferrisburgh, Vermont. It's a 
small company in a small town with a large footprint. This 
morning I saw on display clients using your products from the 
East Coast to the West Coast. And you may have made a new sale, 
because it looks like my wife and I could, you know, take 
advantage of being able to control our thermostat from afar. We 
don't like to get home to chilly houses in Vermont.
    But it's an amazing thing to me to see how, what your 
technology allows to be done. You know, it was amazing. First 
of all, you can control your home. But, also, beer makers were 
able to get precise measurements about the malt making process. 
So there's no end to the benefit of the precision that can come 
with the use of the Internet.
    And this, Mr. Chairman, you and I started our bipartisan 
committee. It has got 21 members on it. This is an area of 
enormous potential. And the folks here, we want to hear from 
you about what you did, Bill, with your partner, with Mr. 
Shepard who's down there, fielding, fielding inquiries, is 
really tremendous. And we're proud of you in Vermont and look 
forward to your testimony today.
    I yield back. Thank you, Mr. Chairman. Thank you, Mr. 
Pallone.
    Ms. Schakowsky. If I could just have the remaining couple 
of seconds, I wanted to add Adam Hokin and Andrew Brown, who I 
hadn't mentioned before as part of PedalCell, for the permanent 
record. Thank you.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired. And at this time that will conclude our Members' 
opening statements.
    The Chair would like to remind Members that, pursuant to 
committee rules, all Members' opening statements will be made 
part of the record.
    Again I want to thank all of the witnesses for being with 
us today. We greatly appreciate your time to testify before us 
at the subcommittee. And today's witnesses will have the 
opportunity to give opening statements, followed by a round of 
questions from the members of the subcommittee.
    Our witness panel for today's hearing will include Dr. 
William Marras, Executive Director and Scientific Director are 
the Spine Research Institute at The Ohio State University. When 
they wrote my notes up, they didn't put the ``The'' in there 
that I put in. Because in Ohio we do know it is The Ohio State 
University.
    Dr. Gary Butler, Founder, Chairman, and CEO at Camgian 
Microsystems Corporation.
    Mr. Bill Kuhns, President at Vermont Energy Control Systems 
LLC.
    Mr. Cameron Javdani, Director of Sales and Marketing at 
Louroe Electronics.
    Dr. Mark Bachman, CTO and Co-Founder, Integra Devices.
    And Peter Kosak, Executive Director of Urban Active 
Solutions at General Motors North America.
    We appreciate, again, you all being here today. And we will 
start our panel discussion this morning with Dr. Marras. And 
you are now recognized for 5 minutes. Thank you very much.

STATEMENTS OF WILLIAM S. MARRAS, PH.D., EXECUTIVE DIRECTOR AND 
 SCIENTIFIC DIRECTOR, SPINE RESEARCH INSTITUTE, THE OHIO STATE 
UNIVERSITY; GARY D. BUTLER, PH.D., FOUNDER AND CHIEF EXECUTIVE 
   OFFICER, CAMGIAN MICROSYSTEMS CORPORATION; WILLIAM KUHNS, 
PRESIDENT, VERMONT ENERGY CONTROL SYSTEMS LLC; CAMERON JAVDANI, 
    DIRECTOR, SALES AND MARKETING, LOUROE ELECTRONICS; MARK 
 BACHMAN, PH.D., CHIEF TECHNICAL OFFICER, INTEGRA DEVICES LLC; 
AND PETER B. KOSAK, EXECUTIVE DIRECTOR, URBAN ACTIVE SOLUTIONS, 
                     GENERAL MOTORS COMPANY

                 STATEMENT OF WILLIAM S. MARRAS

    Dr. Marras. Thank you, Chairman Latta, Ranking Member 
Schakowsky, and members of the subcommittee. Thank you for this 
opportunity to speak about transformational innovations, 
leveraging the Internet of Things occurring at The Ohio State 
University's Spine Research Institute.
    My testimony today will highlight the way in which Ohio 
State University's Spine Research Institute, or SRI, is 
coordinating the communication of advanced sensors, imaging and 
modeling through the Internet to help prevent and better treat 
spine disorders.
    Spine disorders, worldwide, are the most disabling 
condition known to mankind, are responsible for over 100 
million lost workdays per year in the United States alone. The 
condition affects 80 percent of the population some time in 
their lives, and is the second leading cause for physician 
visits. And we spend over $100 billion a year treating people 
for low back pain in the U.S. Despite increasing treatment 
costs, the source of the disorder is often difficult to 
pinpoint, resulting in spine surgeries which are frequently 
unnecessary.
    At the SRI our mission is to quantitatively understand the 
causal pathways for spine disorders and use this information to 
prevent and treat spine disorders. The SRI is unique in that it 
is a true collaboration between engineering and medicine. This 
collaboration has resulted in important breakthroughs, which 
have contributed to the prevention of countless workplace 
injuries and improved the lives of patients.
    The use of innovative technology to collect and exchange 
data through the IoT has made all of this possible. I would 
like to highlight three specific examples of how we are using 
technology associated with the IoT to make a positive impact in 
this important research area.
    First, we have developed smart, wearable sensored devices 
that are capable of quantifying the extent of low back 
impairment. The sensors track the patient's spine motion 
patterns and wirelessly transfer it to our laboratory servers 
via the IoT where it is compared to our spine motion databases. 
This information is then sent to the physician to assist in 
diagnosis and clinical decision-making. The test can be 
repeated after treatment to objectively track the effectiveness 
of the treatment.
    This system is currently used to evaluate spine patients at 
the OSU Wexner Medical Center and is being tested at the Ohio 
Bureau of Workers' Compensation.
    And the second example, we use advanced sensors and 
biomechanical modeling to prevent spine injuries in the 
workplace. We can simulate work and objectively evaluate 
occupational risk in our laboratory. Workers perform their job 
while a variety of smart sensors measure how they move, how 
they activate their muscles, and monitors the forces they 
exert.
    This information communicates with our sophisticated 
personalized biomechanical models via the IoT. These models 
allow us to understand the forces imposed on the spine tissues 
during work, and help us understand how much exposure to 
specific work tasks is too much exposure. Using this approach, 
we are able to redesign work tasks and objectively evaluate the 
effectiveness of the interventions.
    We have used this approach to help numerous companies, 
including Honda, Ford, Toyota, BMW, Boeing, and many others 
reduce low back disorders. In fact, Honda has been recognized 
by industry experts and Forbes magazine for reducing injuries 
in North America by 70 percent in just over 5 years. A current 
project with the Ohio Bureau of Worker's Compensation has 
developed occupational pushing and pulling guidelines that will 
soon be distributed throughout the State via the IoT.
    A final example of our use of technology relates to the 
IoT, involves predicting the outcome of spine surgeries before 
the surgery takes place. By combining IoT data from wireless 
motion, force, and muscle activity sensors with a patient's own 
biomedical imaging data from CT and MRI, we are able to build 
precise personalized computational models of a patient's spine. 
These models can be used to better understand the root cause of 
patient's injuries and help the surgeon choose the best 
treatment options. The personalized modeling has the potential 
to improve the current success rate for spinal surgeries.
    In addition, this virtual modeling can be made tangible by 
simply sending the data to a 3D printer. We are able to print 
exact models of the patient's spine and help the surgeon better 
understand the patient's specific anatomy and explore the use 
of this technology for custom spinal implants.
    Many of these advances have been made possible through the 
compilation of massive amounts of data regarding the unique 
aspects of the patient's tissue architecture. However, one of 
the biggest challenges in this work involves getting access to 
patient information because of the patient protection laws. 
While patient identity protections are certainly necessary, 
they also create significant hurdles in attempting to assemble 
large database of patient outcomes and hamper the effectiveness 
of machine learning efforts.
    Another significant roadblock is sustainable Federal 
funding for long-term research efforts such as these. Given the 
lack of certainty in Federal research funding in recent years, 
these and future efforts could be in serious jeopardy.
    I would like to thank the committee again for their time. I 
look forward to the committee's questions. Thank you.
    [The prepared statement of Dr. Marras follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. Latta. Well, thank you very much for your testimony.
    And, Dr. Butler, you are recognized for 5 minutes. Thank 
you.

                  STATEMENT OF GARY D. BUTLER

    Dr. Butler. Good morning, Chairman Latta, Ranking Member 
Schakowsky, and members of the subcommittee. Thank you for the 
opportunity to testify today.
    My name is Gary Butler and I am the founder and CEO of 
Camgian Microsystems Corporation, a developer of advanced 
sensing and analytical processing technologies. Camgian, a 
Starkville, Mississippi based high tech company, has been 
recognized by leading technology analysts such as Gartner for 
our product innovation in the Internet of Things sector. While 
much of the attention in IoT has been focused around consumer 
applications, our efforts are addressing the commercial market. 
Sometimes described as the Industrial Internet of Things, this 
segment of the IoT space represents a new form of intelligent 
systems that are optimizing the dynamic of humans, data, and 
machines to drive revolutionary gains in productivity and 
efficiency.
    From maximizing asset utilization to improving safety, 
industrial IoT technologies stand to transform business and 
drive a new wave of global economic expansion.
    To address this opportunity, we developed Egburt, an award-
winning IoT software platform built in an edge computing model. 
Egburt performs advanced multi-sensor data processing at the 
network's edge to enable efficient and scalable IoT operations 
with economical utilization of communications resources.
    In partnership with our clients, we are developing 
industrial IoT applications built on Egburt in areas related to 
condition-based monitoring and maintenance of remote, high 
value assets and equipment. Based on our experiences in 
developing and deploying such systems, I would like to offer 
the subcommittee my perspective on the state of industrial IoT 
and its future.
    At Camgian, we see IoT as a critical technology trend that 
doesn't merely connect the physical world, but powers it using 
advanced computing. That is to say, IoT extends the reach of 
today's software and data processing technologies far beyond 
traditional Internet boundaries and into the physical world 
around us. This is enabled through a system architectural model 
where industrial assets are imbued with sensing, processing, 
software, and communications technologies. The result is the 
generation of critical insights into the operation and 
maintenance of industrial systems that were previously 
unavailable.
    Today, such insights are driving better and faster 
decisions and delivering enormous economic business and 
economic advantages to companies and organizations worldwide.
    A case study includes our work in condition-based 
monitoring where we are partnered with clients responsible for 
managing the reliable operations of remote industrial assets. 
Examples include large civil infrastructure systems such as 
locks and dams, and power systems for marine operations such as 
diesel engines and generators. In these cases, downtime due to 
unscheduled maintenance can represent millions of dollars of 
economic loss.
    To address this problem, we are leveraging Egburt in the 
development of new applications that will provide operations 
and maintenance personnel the ability to remotely and 
efficiently monitor the condition of large numbers of 
industrial assets across their enterprise. Specifically, this 
includes the remote collection and analytical processing of 
large volumes of asset sensor data to identify failures before 
they happen, and drive radical improvements in operational 
reliability and safety.
    The potential value of eliminating unscheduled downtime 
across the industrial sector is enormous, but represents only 
one example of the economic power of this technology trend. 
Similar IoT enabled gains in productivity, cost reductions, and 
worker safety are emerging in other markets and are now driving 
the technology's widespread adoption throughout our society in 
areas such as transportation, manufacturing, oil and gas, 
healthcare, power distribution, and agriculture, to name a few. 
Management consultant Accenture estimates that industrial IoT 
technologies could add $14.2 trillion to the global economy by 
2030, including $7.1 trillion to the United States.
    Looking ahead, fueling this growth will be new innovations 
in advanced sensor and analytical processing technologies. With 
billions of industrial sensors deployed today and growing, 
exploiting the untapped value of the massive data sets 
generated from these devices will be the next big leap in IoT's 
technology evolution.
    With Egburt, we are tackling this big data challenge 
through a confluence of innovations in real-time signal 
processing, data analytics, and machine learning with the aim 
of transforming today's human-centric IoT models into semi-and 
fully autonomous intelligent systems. This will include 
automating the data to decision continuum, a tipping point in 
IoT's evolution that will spark a wave of automation, 
reinventing industrial processes and transforming the future 
workforce.
    Thank you. And I will look forward to your questions.
    [The prepared statement of Dr. Butler follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Latta. Well, thank you for your testimony.
    Mr. Kuhns, you are now recognized for 5 minutes. Thank you.

                   STATEMENT OF WILLIAM KUHNS

    Mr. Kuhns. Thank you, Chairman Latta, and Ranking Member 
Schakowsky, and the rest of the committee for inviting us to 
share our perspective.
    I am Bill Kuhns, President and Co-Founder of Vermont Energy 
Control Systems in Vermont. We are a small company and started 
based on an observation that may seem fairly mundane: most 
things don't work the way they are supposed to. In fact, every 
building we have been in we found out that the systems in that 
building may have been designed well, but they don't work well. 
And there is an enormous amount of energy, an enormous amount 
of value that is lost from systems just not working the way 
they are supposed to.
    So part of our mission is to provide an open-source, non-
proprietary solution that allows people to instrument and 
understand what is happening in the buildings and the systems 
that they own.
    In pursuit of that, I would like to start by echoing the 
comments of Daniel Castro from the 2015 IoT event: Congress 
must avoid heavy-handed regulations that can stifle innovation. 
This is an area where innovation is really happening at a 
breakneck pace. Just as with the early Internet, there is a lot 
of chaos. The potential benefits are enormous, but it is not 
clear exactly what is going to happen. It is important that we 
allow the evolution of this technology to proceed with as few 
barriers and impediments as possible.
    As a small business owner, I am very much aware of the 
challenges that small businesses face. According to the Bureau 
of Labor Statistics, the percentage of people employed by small 
businesses in the country has been in decline for decades, and 
the rate of small business start-ups has been in decline for 
more than 10 years. This is a problem in the IoT space because 
small businesses are much more able to move quickly and be 
agile and take advantage of opportunities.
    Every regulation, however well-intentioned, adds to the 
costs and risks of starting a business. Even more critically, 
it distracts the entrepreneur from focusing on the purpose of 
the business. You can't be innovating when you are filling out 
regulatory paperwork. This might be an expense for a big 
company, but it can be lethal for a small business.
    I would like to give you just a simple example from my own 
experience. This is more on the economic side than on the IoT 
technology side. But this month we wanted to hire a part-time 
college intern this summer from the University of Vermont. We 
discovered that in Vermont, even though this would be our first 
actual payroll employee we have to have workers' compensation 
insurance. For a big company in our industry, that might add 1 
or 2 percent to payroll. For us, it added more than 10 percent 
to our payroll costs. And even more importantly, it took a day 
and a half of my time to figure out how to comply with that 
regulation.
    As we launch our IoT products, we have plenty of technology 
challenges and security challenges, other things we need to 
focus on. It is important that regulatory compliance does not 
add another layer of costs, delays, and uncertainty.
    A second issue that I want to touch on briefly is radio 
frequency spectrum. We are particularly interested in low 
frequencies that penetrate building structure. And these 
frequencies don't support high data rates. They are not useful 
for cell phones and that sort of thing, but they work very well 
through structures, through walls, and trees. In the U.S. there 
is only a small band available, and those frequencies are 
different from what is in use in the rest of the world. That 
means that if you buy a sensor that is built in Europe it won't 
work in the United States. And it means that ours won't work 
there.
    It would be helpful to free up additional low-frequency 
spectrum for low-power devices. It would be crippling to sell 
rights to specific frequency bands at auction, as has been done 
in other auctions of the frequency spectrum. Bandwidth is a 
finite public resource. Selling it to the highest bidder 
effectively shuts out small businesses.
    Finally, I would like to touch on security. There has been 
some very good points made on security. And it is particularly 
near and dear to our hearts.
    There was a significant breach accomplished recently 
through a compromised building management system installed by 
one of our competitors. As a manufacturer in that space, that 
got our attention. We are very sensitive to that issue. And 
every connected device is a risk; if you can connect to it, so 
can an intruder.
    Physically, I live in a very safe area. I live on a dead-
end road in Vermont and it is wonderful. On the internet I live 
in a high-crime district. We see literally hundreds of probes 
and connection attempts every day. It is exactly like having 
masked men coming around my house and trying to open the doors 
and windows. We are doing all we can to make sure the doors and 
windows are locked, but it is obvious to me there is no way we 
can continue to have new and innovative products without also 
introducing new vulnerabilities. We need to figure out a more 
effective strategy for protective measures, deterrents, and law 
enforcement in this area.
    And with that, I am done. Thank you very much.
    [The prepared statement of Mr. Kuhns follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Mr. Latta. Well, thank you very much for your testimony 
today.
    And, Mr. Javdani, you are recognized for 5 minutes. Thank 
you very much for being with us today.

                  STATEMENT OF CAMERON JAVDANI

    Mr. Javdani. Thank you, Mr. Chairman, Ranking Member 
Schakowsky.
    I am delighted to appear before the committee today to 
discuss the successes and challenges that Louroe Electronics 
has experienced with IoT technologies in the security and 
surveillance industry. We are proud to be an American 
manufacturer of audio technologies for security systems, and 
have products used in almost 60 countries today. Since our 
founding 1979, our technology has evolved from standalone 
analog devices to a current portfolio of integrated network-
connected devices and sensors.
    The benefits of IoT technologies in security applications 
are numerous. Primarily, networked devices allow security 
officers to monitor larger geographic areas and take advantage 
of economies of scale to reduce the operating costs of a 
security system. This design allows for faster identification 
of a security incident, faster response times to a security 
incident, and the ability to send relevant information and 
evidence to the appropriate authorities in near real time.
    Technology growth within the security and surveillance 
industry is largely focused on the analytic capability of a 
system. Very few surveillance devices are monitored in real 
time, which means that IoT devices are data sensors, and not 
surveillance equipment as they are more conventionally thought 
of.
    The analysis of this data, which is an automated process, 
will alert security officers and staff in the event of an 
incident. Louroe technologies, including vocal aggression 
detection and gunshot detection, look for certain acoustic 
patterns that represent security threats. Used alongside other 
networked security technologies, this type of system provides 
for optimization of security resources, as it no longer becomes 
necessary for staff to monitor all areas at all times.
    As IoT technologies continue their adoption in the security 
industry, there are certain risks that present themselves. 
Unauthorized access to data, either stored on recorders or 
being sent over a network, present challenges to be sure that 
Americans' privacy expectations are met. Certain basic security 
practices, especially in the consumer market, can be taken to 
make sure that unauthorized access is restricted or does 
entirely not take place. Most notably, it is recommended that 
users of IoT devices, security or otherwise, add a password to 
their devices or change the default username and password that 
comes pre-loaded on an IoT device.
    Without taking appropriate precautions, consumers put 
themselves at risk of their privacy being violated. Online Web 
sites and communities exist where non-password protected 
cameras, or cameras that still use factory default login 
credentials, are streamed live over the Internet for anyone to 
see. Certain malware and viruses scan networks for IoT devices 
that accept these default credentials, and then compromise 
these devices for use in large scale denial of service attacks.
    Despite these risks, the adoption of IoT devices in the 
security industry continues to accelerate. For Louroe 
Electronics there are two key areas of success I wish to point 
out for the committee.
    First, since late 2011 we have worked closely with the U.S. 
Commercial Service within the Department of Commerce to export 
our technology. Thanks to the work of trade administration 
officials in American embassies, and especially the work of the 
West Los Angeles Export Assistance Center, we have more than 
doubled the number of countries we have exported to. In 2015, 
we were honored to receive the President's E Award for Export 
Achievement, the highest recognition a U.S. entity may receive 
for export activity. This is an achievement that could not have 
become reality without our partnership from the Commercial 
Service.
    Second, we have made advantageous use of free trade 
agreements for international market access. For a small 
business in America, the removal of trade barriers creates new 
opportunities to reach new customers with more affordable 
products. As the current administration has stated their 
intention to review our trade policies, I urge the Congress to 
ensure that any change to trade agreements preserves that 
market access, and that supply chains for American small 
businesses be maintained. Any change that restricts either will 
reduce exports and increase product prices to the detriment of 
American manufacturers. However, an opportunity exists to 
update agreements to address IoT industries and technologies, 
many of which did not exist when the agreements were enacted.
    Mr. Chairman, thank you for the invitation to appear today 
before the committee. I look forward to answering your 
questions and the committee's questions on IoT opportunities 
and challenges. Thank you.
    [The prepared statement of Mr. Javdani follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Latta. And, again, thank you for your testimony.
    And, Dr. Bachman, you are now recognized for 5 minutes for 
your statement.

                   STATEMENT OF MARK BACHMAN

    Dr. Bachman. Chairman Latta, Ranking Member Schakowsky, and 
committee members, thank you for inviting me today to share 
some thoughts and insights on the opportunities and challenges 
in the Internet of Things. I would especially like to thank 
Representative Mimi Walters, who represents the University of 
California Irvine in California's 45th Congressional District, 
for support of UC Irvine.
    For this testimony, I am representing two organizations, 
the University of California Irvine and Integrate Devices. UC 
Irvine is a world class premier research university, the Orange 
County campus of the University of California system. UC Irvine 
promotes IoT through research, education, outreach, and tech 
transfer. Integra Devices is a spinout company from UC Irvine 
that develops smart sensing modules for IoT, utilizing unique 
intellectual property for advanced manufacturing, machine 
learning, and energy harvesting.
    My testimony describes my experiences and perspectives 
regarding some challenges and solutions for IoT. I can only 
briefly discuss these topics now, but I provide more 
information in my written testimony that covers overview of 
IoT, the role of the public university in leadership and 
stimulation of the local IoT economy, and the spinning out of 
my IoT start-up.
    This testimony comes from my direct experience in these 
topics. As a professor and IoT Evangelist, I spent many years 
studying IoT, working with researchers and companies to 
implement technology for IoT applications. As an entrepreneur, 
I have brought technology out of the university to convert it 
into commercially viable goods and services.
    The Internet of Things promises to bring dramatic changes 
to the way we do things in our world, bringing large quantities 
of new data and insights about industrial processes and 
operations, enabling us to do business with greater 
productivity, efficiency, and safety than ever before. There 
are expected to be 50 billion connected monitoring devices 
deployed by 2025. And using sophisticated analysis of data from 
thousands of monitoring units in the industrial and civil 
infrastructure, we can better understand the complexities of 
our operations and identify ways to improve the way we do 
things.
    Most of these improvements will have significant economic 
benefit. The resulting combined economic impact of IoT is 
predicted to be between $4 to 11 trillion by 2025. Industry and 
manufacturing, transportation, and civil infrastructure 
represent the largest markets. Home automation and consumer 
products, while significant, represent the smallest of the IoT 
markets.
    Universities such as UC Irvine have the potential to be a 
powerful catalyst in leading the effort towards next generation 
IoT. Research and development in areas such as basic sciences, 
information sciences, social sciences, and business lead 
directly to insights, technologies, and methodologies that can 
drive IoT applications, services, and products. In Orange 
County, California, UC Irvine provides leadership for our IoT 
ecosystem through research, training, public outreach, and the 
stimulation of enterprise.
    UC Irvine provides a common ground for companies, 
Government, and the public to work together on IoT topics. 
Several organizations on the UC Irvine campus are active in 
promoting and stimulating the IoT economy in Orange County. 
These include the California Institute for Telecommunications 
and Information Technology, Calit2, and the UCI Applied 
Innovation Institute. Calit2 works with industry and campus 
researchers across disciplines to convert basic research 
results into technology that is practical and of value to 
industry. UCI Applied Innovation brings campus-based inventions 
and entrepreneurship together with Orange County's vibrant 
business community to support job creation and economic growth.
    My own company, Integra Devices, is producing IoT products 
based on technology that was developed at UC Irvine over the 
last 15 years. We produce highly integrated, wireless smart-
sensing modules that can be used to monitor industrial and 
infrastructure operations. Our sensing devices are fully self-
contained, requiring no additional hardware, can be placed on 
machinery and infrastructure, and can analyze their activity in 
real time, extracting the key features of the signal to send to 
the cloud. Our devices can learn the patterns of machinery, and 
within a few hours can identify the natural state of machinery 
and report when it deviates from normal behavior, providing key 
information for predictive maintenance and operations.
    Many of our devices can run under zero power conditions, 
meaning that they do not need to be cabled and they do not need 
to have batteries replaced. This is highly advanced technology 
that requires new manufacturing methods to build our devices. 
The key manufacturing for our devices is done in the United 
States.
    Most of the research leading to these products was done at 
UC Irvine. Some of our current development is funded by the 
National Science Foundation. Integra Devices has benefitted 
greatly from research performed at the University and continues 
to partner with UC Irvine and other public institutions to 
develop new IoT technologies and applications, and train the 
next generation of IoT leaders.
    Having worked in both public academia and the private 
sector, I am convinced that a strong public-private partnership 
will stimulate the next generation of technologies, business 
practices, applications and services, and small companies for 
IoT, ensuring that the United States retains leadership in IoT 
over the coming years. I have worked with and presented to 
colleagues, business leaders, Government agencies, and 
entrepreneurs in the technology industry in Europe, Asia, and 
the Americas. The significant degree of cooperation between our 
public institutions and universities is the envy of the world 
and widely regarded as one of our key advantages for bringing 
innovative technologies, practices, and enterprises to the 
market.
    The Internet of Things is probably the most significant 
tech market of the 21st Century, and is one that the United 
States can lead, if we are committed to doing so.
    Thank you.
    [The prepared statement of Dr. Bachman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

     
    Mr. Latta. Thank you very much for your testimony.
    Mr. Kosak, you are recognized for 5 minutes. Thank you for 
being with us.

                  STATEMENT OF PETER B. KOSAK

    Mr. Kosak. Thank you. Good morning, everyone. My name is 
Peter Kosak. And I am Executive Director of Urban Active 
Solutions and Maven at General Motors.
    I thank you, Chairman Latta, Ranking Member Schakowsky, and 
distinguished members of the subcommittee for the opportunity 
to speak to you today about the new initiatives that General 
Motors has to address changing mobility needs of consumers.
    At GM, disruptive technology developments are unlocking 
access and efficiencies in transportation, resulting in new and 
improved services. I highlight three today. The first is 
embedded connectivity in vehicles. The second is app-based 
access, and control for consumers. And third, and lastly, data 
science is enabling efficiency in operating systems and 
services.
    Twenty years ago, recognizing the value and potential of 
embedded connectivity, General Motors pioneered automotive 
telematics with the creation of OnStar.
    When I first learned about OnSTar back in 1995, I couldn't 
imagine the potential of embedded connectivity, although I 
certainly could understand the benefits of safety notifications 
and a call center that could download directions and 
destinations to my in-car navigation system. It has been 
fascinating to watch subsequent connectivity developments, 
especially in safety, such as GM working with doctors and first 
responders to understand how crash telemetry data can prepare 
first responders for crash events.
    Leveraging the foundation of OnStar and other key 
technologies, General Motors is extending its core business 
into transportation as a service, where embedded connectivity, 
app-based access, and data science are transformative. We have 
created a new brand called Maven, an innovation leveraging GM's 
leadership in automotive connectivity. Now in 17 cities, Maven 
is a platform for on-demand mobility, offering multiple 
vehicle-sharing products for consumers and businesses, such as 
Maven City, Maven Home, and Maven Gig.
    The Maven City and Maven Home car-sharing platforms, which 
launched in February 2016, offer a wide range of vehicles that 
are distributed where people live and work for shared-use. In 
15 cities, members can rent vehicles by the hour, by the day, 
week, or month. Insurance, fuel, and maintenance are included 
in rental. The entire service, in the entire service your phone 
is your key fob. It's an entirely keyless experience.
    Maven removes the need to own and keep a car for those who 
cannot own a car or choose not to own a car. And we have also 
seen that the service serves as a mobility alternative or 
option for current vehicle owners.
     Seventy-five percent of Maven members are Millennials, a 
hard-to-reach target segment for auto makers. Members have 
driven over 350,000 hours nationally, 50,000 in DC, and 50,000 
in Chicago, 28,000 hours in LA, launched last October.
    Building on Maven Home and City, we launched an on-demand 
leasing program for rideshare drivers in March 2016, which 
evolved into what we now call Maven Gig. Maven Gig is an 
enabler for the sharing economy. We provide Gig drivers with 
access to vehicles on a weekly rental basis for as long as they 
want to work for an app-based ridesharing or delivery company 
like Lyft, Instacart, and Grubhub.
    With Maven Gig, a driver can carry commuters in the morning 
and the evening, make deliveries during mid-morning and 
afternoon, and deliver lunches and dinners at mealtime, while 
having access to a car or crossover for their personal use. 
Since it's launch, Gig drivers have logged over 140 million 
miles, providing rides for over 17 million customers. In mid-
February, we began deploying the Chevrolet Bolt Electric 
Vehicle into San Francisco ridesharing applications, starting 
with 25. We are now up to 80 in San Francisco and San Diego.
    The efficient, flexible Chevy Bolt is uniquely capable for 
ridesharing, offering 238 miles of all-electric range and DC 
fast-charge capability. In less than four months, we have 
logged over 550,000 miles, enabled by over 5,000 DC fast-charge 
events, and carrying over 50,000 riders. Bolt EV drivers are 
averaging about 130 miles a day, which is about four times that 
of private vehicle owners. Ten percent of total days driven 
among all drivers are over 240 miles, making it clear that 
charging and range limits are not issues.
    Bolt EVs are yielding unprecedented carbon-free miles per 
vehicle while increasing public exposure to EVs, demonstrating 
that on-demand ridesharing drivers will use EVs, and while 
building a compelling business case for public charging.
    At the same time, Maven is building new partnerships with 
charging providers and electric utilities. Maven's Bolt EV 
deployment provides operational learning and a sound foundation 
for the next step: the creation of autonomous vehicle systems 
based on EVs for ridesharing.
    In fact, General Motors announced this morning the 
production of our next generation of Bolt EV/AV test vehicles 
at our Orion assembly plant in Michigan. While Maven Home, 
City, and Gig are new, in-market ways for consumers to access 
automobiles for personal use or as a means to generate income, 
autonomous or self-driving technology promises opportunities to 
make urban, chaotic urban environments safely manageable. Maven 
can seamlessly integrate with mass transit as a coordinated 
first/last-mile solution, and fill gaps between taxis and mass 
transit systems via dynamic shuttles.
    In summary, business model and technology innovations 
promise to transform mobility, affording greater access and 
improved quality of life for cities. Embedded connectivity, 
app-based access, and data science will yield safer and more 
robust transportation systems, with more modality and options. 
GM is making investments in connectivity, IT, electrification, 
and autonomous technologies to maintain its leadership position 
as we all, collectively, drive towards this exciting future.
    Thank you for the opportunity to speak to you today. I will 
be happy to answer questions during testimony.
    [The prepared statement of Mr. Kosak follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Mr. Latta. Well, thank you very much for your testimony 
this morning. And that will conclude our statements, opening 
statements from our witnesses this morning.
    And we will begin with the questions now from the members. 
And I will recognize myself for 5 minutes.
    Dr. Marras, if I could start with my first question to you. 
In your testimony you mentioned that you work with Honda and 
have been recognized by industry experts and Forbes magazine 
for reducing injuries by 70 percent over a 5-year period. Will 
you speak to how IoT enabled you to address this issue and see 
how, and also to see the results so quickly?
    Dr. Marras. Yes. The IoT allows us to really leverage 
massive amounts of information. And so we are able to really 
streamline. We could do the testing of the various tasks that 
were causing the problems; we could communicate with our 
computers back at the lab; we could transmit that information 
back to the people at Honda and they could correct these 
situations very efficiently. So the IoT has just enabled us to 
greatly accelerate and leverage the analysis procedures that we 
typically do.
    Thank you for your question.
    Mr. Latta. If I just may follow up. When we were over at 
the IoT event, you had different disks on your display showing 
how monitors were set up to actually see how an individual--
could you maybe walk through that, especially with how workers' 
compensation, how you were able to help them to look at those 
workplace injuries that a worker might have?
    Dr. Marras. Yes. So one of the, I think you are probably 
talking about our push/pull models----
    Mr. Latta. Right.
    Dr. Marras [continuing]. That we have been developing. And 
we have known for a long time that lifting is a risk. And we 
have been able to convince industry to control the exposure to 
lifting so they are not injuring workers.
    But what is happening is now people are piling thousands of 
pounds of load on carts and having to push them around and 
don't understand much about those risks. So we have developed a 
system where we could look at how the body responds as 
potentially workers are pushing and pulling under different 
conditions. And we are trying to look inside the body to 
understand exactly how the disks are responding and figuring 
out exactly when the worker is exposed to too much stress, 
given that task.
    And then we note that, the forces that are in hand, which 
is something you can measure in industry, and that becomes the 
limit. So we are using the Internet of Things to distribute 
this information through apps and through the Web site all 
around the State, and really all around the country, so people 
can control their workplaces given this information.
    Mr. Latta. Thank you very much.
    Dr. Marras. Thank you.
    Mr. Latta. Ms. Kosak, if I could turn to you.
    As our vehicles become more connected there is a greater 
opportunity for the bad actors out there to potentially attack 
a vehicle. Would you discuss what GM and the industry are doing 
to ensure the vehicles are safe from cyber threats and other 
attacks?
    Mr. Kosak. Sure. You know, I think that really our work in 
this area dates back to the inception of OnStar that I 
mentioned in my opening statement. OnStar has been embedded 
connectivity and the ability to get information out of the 
vehicle and control the vehicle. It became an app-based service 
as well in 2010 when we introduced RemoteLink.
    So, we have a long history with working with embedded 
connectivity. And I, I think that there are three things that 
have evolved since we started. The first is that the team 
responsible for that area has continued to grow, both in size 
and in capability. And our area in Maven we now have three 
individuals from our chief product security officer embedded 
with our team, working with the IT and product teams to ensure 
that, secondly, and maybe most importantly, cybersecurity is 
designed into these systems.
    So it is not worked into systems afterward. It really is 
designed in from the outset, with very clear objectives and 
requirements.
    And then another important area, I think, is sharing 
information. So, with the Auto ISAC where our chief products 
security officer is a chairperson on that auto body which 
shares best practices and learnings in this area. I think this 
is one area everyone agrees is so important that you need to 
share information. There are not competitive advantages to be 
had that we need to share information when attacks occur and 
they are thwarted, letting other auto makers know what kind of 
attack there was and how it was thwarted.
    So, I think the team growth, I think that designing in 
cybersecurity protection and sharing information carefully, not 
just within the auto industry but with the defense industry and 
the aerospace industry where also, you know, there has been a 
lot of great work done as well. I think these are the three, 
three areas that make me confident that we are addressing what 
is a fast-changing landscape.
    Mr. Latta. Well, thank you very much. And my time has 
expired.
    And the Chair will recognize the gentlelady from Illinois, 
the ranking member of the subcommittee, for 5 minutes.
    Ms. Schakowsky. Thank you.
    Dr. Marras, I was very interested in your testimony. I have 
spinal stenosis, and so at some point I may be a consumer of 
what you have been studying and producing. But it sounded to me 
like you were saying that the need for security of private 
information is somehow a barrier to aggregating that 
information. Did you say that?
    Dr. Marras. The models that we have in our data to pinpoint 
where the issues are, are predicated on the fact that we can 
identify what abnormal tissue stressors are within the spine. 
And so, in order to understand abnormal, you have to understand 
normal. And everybody is different.
     And so, one of the things that is unique to our work is we 
are able to build massive databases of what, how the spine 
responds.
    Ms. Schakowsky. Right. But can't you just remove the 
individual information?
    Dr. Marras. Yes, we can. But and that is what we are trying 
to do. But that is becoming quite a barrier.
    For example, some of the studies we have done, it has taken 
us 3 years to get by the IRB, just because of the tight 
restrictions in the IRB regulations. So it is a lot more 
difficult than it sounds, but it is not easy to compile this 
type of information. And you would think it would be very easy 
to just strip away the name and keep everything else, but it is 
not. There are still a lot of barriers to doing that.
    Ms. Schakowsky. Thank you.
    So, Mr. Kosak, I introduced a bill last week called the HOT 
CARS Act. And you talked about how life can be made easier and 
better with IoT and how GM is doing that. It was one of the 
most disturbing events I have ever had, because it was parents, 
loving parents, responsible parents who, as human beings, made 
a tragic mistake and forgot their children sleeping in the 
backs of their cars. Eight hundred children since 1990 have 
died from heat stroke in the back of cars.
    And it seems to me with all the bells and whistles that are 
on our automobiles right now that there has to be a way--and I 
think GM is an innovator here--in making sure that that doesn't 
happen, that these are preventable, and that we have the 
technologies, or at least they are available, for us to develop 
to make sure that this never, ever happens.
    Can you comment on that?
    Mr. Kosak. Well, I think the emotion in your voice is 
justified. I mean, I can think of nothing more, you know, grave 
or senseless than the issue that you are describing.
    I think sensing issues, any issue and being creative, I 
think that is what innovation is all about; it is about sensing 
a problem and finding solutions. For that particular case, 
General Motors has developed a technology that is on many 
models now that will continue to roll out which senses at the 
beginning of a trip when either of the rear doors is opened for 
any reason, and then at the completion of that trip simply 
reminds the driver to check the rear seat area to make sure 
that there is nothing back there, most importantly a child.
    So these kinds of reminders can be very important. And I 
think these kinds of things are increasingly important because 
people are leading such chaotic lifestyles and they are so 
distracted. And I think that is the, that is the most heart-
wrenching part in the stories that, you know, you are 
describing where people were just harried doing things, 
probably, you know, running around doing things for their 
children, and that is when things can happen.
    Ms. Schakowsky. So, my legislation would require in all new 
cars that there be this kind of technology. And, you know, my 
car reminds me if I have left my keys in the car. And it seems 
to me that something as important as a child in the car and 
saving a life would be so incredibly important.
    And I would just like to say to my chairman that I am 
hoping that we can explore, explore that. You know, there are 
not that many pieces of legislation that are a matter of life 
and death and give us the opportunity to save lives, and so I 
would hope that our committee can look at that so that this 
would be standard in automobiles going forward.
    And I yield back my time.
    Mr. Latta. Thank you very much. The gentlelady yields back 
the balance of her time.
    The Chair now recognizes the gentleman from Mississippi, 
the vice chairman of the subcommittee, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman. And what an incredible 
group of witnesses and excitement that we sense and see where 
we are going on this.
    And so, Dr. Butler, welcome. We are glad to have you here. 
And what year did you start Camgian?
    Dr. Butler. Two thousand six.
    Mr. Harper. OK, 2006. And we are now 2017. Did you envision 
the progress that you would have made to this point when you 
talk about where we are today with the IoT?
    Dr. Butler. I didn't. I think we are making great strides 
in the United States in advancing this technology. I think the 
opportunity for the United States is significant, both 
domestically in terms of operational savings and productivity, 
but also as a business that we can propagate to the rest of the 
world.
    Mr. Harper. Let's talk a minute about what is an important 
issue and ongoing almost crisis, and that is our aging 
infrastructure that we have in this country. I know the 
President was in, I believe, Ohio recently. And your company, 
Camgian, along with Egburt, your technology that you have, tell 
us a little bit more about how that is impacting, particularly 
the Markland Lock and Dam on Ohio River and what you see as 
this technology to help us with that aging infrastructure.
    Dr. Butler. Sure. Our software has been built to provide 
enterprise with monitoring applications. So, for example, it is 
very flexible in terms of integrating advanced industrial 
sensors and then also integrating the sensor processing and 
analytics associated with that data. So, we can build very 
scalable products that can extend out to this type of 
infrastructure.
    Now, when considering the aging infrastructure problem, one 
of the problems that we have in the United States today, a lot 
of these large, critical systems were built more than 50 years 
ago with a 50-year lifespan. So what we are seeing now is that 
the unscheduled maintenance of these systems is rapidly 
increasing.
    So, in addition to new innovations in terms of repairs and 
refurbishment, concrete and steel, it is our thesis that data 
can bring a lot to that market by making these systems 
intelligent, by imbuing these systems with sensors and 
communications and analytics technologies, can provide both 
engineers and operations personnel real time, valuable insights 
into the structure health and operational conditions of these 
systems over time. And so they can use that information to make 
better decisions about how to address these problems before 
they become failures.
    A system like the Markland Lock and Dam, for example, if 
that system goes down it is millions of dollars of economic 
impact to the local economy per day. So it is very important 
that these systems maintain significant up time in their 
operations.
    Mr. Harper. And then this, and these sensors and this 
information that is gathered realtime, it allows you to know 
when there is perhaps a crisis, perhaps a problem that needs 
immediate concern and helps them stay on a better maintenance 
schedule, I assume?
    Dr. Butler. That is correct. That is correct.
    Mr. Harper. You know, you also stated that the industrial 
Internet of Things applications certainly are driving some 
amazing revolutionary gains in businesses. So what you are 
doing there is through the Army Corps, U.S. Army Corps of 
Engineers there at Markland. But talk about what you think we 
are going to see or what we should look for as how this really 
benefits businesses on what you're doing.
    Dr. Butler. Sure. I think that same model, when it comes to 
improving down time and reducing failures in mechanical 
systems, it applies an extrapolates across a number of 
industrial markets today. That includes areas like 
manufacturing. It also includes areas like agriculture. It 
includes areas like transportation, healthcare, energy for 
example. Any of these industries that rely on equipment to 
drive their business model, these types of efficiency gains are 
enormous in terms of significantly reducing any down time in 
those systems; and also, the aspect of security and safety with 
the failure of these types of systems.
    So the type of work that we are doing with the Corps of 
Engineers today I think also applies across the industrial 
industry or industrial market and sector in general, and not 
only applies, obviously, to domestic problems that we are 
addressing here in the United States, but also around the 
globe.
    Mr. Harper. So, when we are looking at this, particularly 
how we make sure the Congress doesn't get in the way, what, do 
you have any, any thoughts as to what we can do to help as we 
develop the industrial IoT?
    Dr. Butler. Yes. Good, good question. I----
    Mr. Harper. This is your chance to give us advice.
    Dr. Butler. Sure. I think, you know, Dr. Bachman said a 
moment ago that this is the most significant technology trend 
of the 21st Century. And I agree with him on that, on that 
matter.
    This could be an enormous job creator for the United States 
in the sense that the value that can be extracted from 
industrial IoT technologies is enormous across industries, as 
we, as we have heard. So, as it relates to what the Federal 
Government can do, I think really three things:
    Number one is to lay out a national strategy for IoT that 
is focused on becoming the leader in the world; number two, 
serving as a catalyst to start this market. That has been done 
previously with the Internet, with DoD and the ARPANET. I think 
we need to do the same thing in the industrial IoT. And I think 
smart infrastructure is a great place to start. Because if we 
can build and deploy systems in that market, that will 
extrapolate to other markets and help us grow, again, both 
domestically and internationally.
    And if you think about job creation, if I were to, as a 
high-tech company executive, if I think about scaling my 
business to jobs that that would create--our product 
engineering jobs, jobs for electrical engineers, jobs for 
mechanical engineers, jobs for industrial engineers, computer 
sciences, service jobs--so there are lots of jobs that can be 
created here. And we can service the world with these types of 
technologies if we decide to take the lead in the market.
    Mr. Harper. Dr. Butler, I hate to cut you off but I am way 
over on my time.
    Dr. Butler. Oh, sorry.
    Mr. Harper. But thank you so much. Very informative. And 
with that, I yield back.
    Dr. Butler. Thank you.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired.
    And the Chair now recognizes the gentlelady from Michigan 
for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman.
    This is an important hearing, a subject that is near and 
dear to me. The Internet of Things is revolutionizing the way 
we live our everyday lives by offering both companies and 
consumers a wide array of benefits. We are especially, and as 
you have seen in the discussion today, the benefits have 
increased connectivity. We are seeing it in the transportation 
sector in all the ways that we have been discussing this 
morning.
    In my home State of Michigan we are watching the auto 
industry turn into the mobility industry. And this 
transformation is being driven by the development of connected 
and automated vehicles. So I am very pleased that the committee 
is continuing to focus on this.
    Before I ask my questions, which I won't have enough time 
to do it, I want to support what my colleague from Illinois, 
Jan Schakowsky, was talking about in the technology for the HOT 
CAR bills. I am going to be co-sponsoring it with her. And 
would say to all of you we even need to be looking at 
technology further. That is one way. But wouldn't it even be 
better if we talked to child seat makers about putting 
technology in the child seat?
    So, I want to commit to work with you, and already started 
on that. So that is how, what we are talking about today, how 
can innovation make a difference.
    But let me quickly go to General Motors, Mr. Peter Kosak. 
Your testimony talks about GM's investment in Maven, a 
ridesharing service. It is my understanding that Maven Gig is 
doing great work with ridesharing applications. How 
transformative will Maven be? And where will we see the 
greatest benefits ultimately down the road?
    Mr. Kosak. Yes, that is a great question. I guess my answer 
would touch on a number of issue and opportunity areas.
    Maven is a platform, and as a sharing platform the 
objective is to have a set of assets that are better utilized, 
more efficiently utilized overall. And, you know, we are 
thinking a lot about under served communities and serving 
persons with disabilities, and a variety of different 
situations where there isn't sufficient service today.
    And you could even imagine, though, a rural environment 
where you have harried parents, you know, frantic to get their 
kids to after school activities, and the need to get elderly 
to, you know, mid-morning doctors' appointments or out to do 
errands, or serving persons with disabilities. And through the 
Internet of Things and by providing ridesharing services, by 
linking these things together you can get complementary sources 
of demand, satisfied by a shared-use platform that then in the 
end is economically viable, that can serve a number of 
different cases that it would be difficult to justify a service 
for alone but that now can be integrated.
    And you could even imagine entrepreneurs who have a small 
fleet of autonomous vehicles in their community serving all 
these different use cases. So, I think that the ridesharing 
platform that we have in the form of Maven is foundational to 
provide for autonomous insertion and for the better utilization 
of automotive assets against a whole variety of use cases, not 
individually but in combination.
    Mrs. Dingell. In your testimony you also discuss Maven 
Gig's deployment of full electric Chevrolet Bolt vehicles in 
San Francisco and San Diego for ridesharing applications. I am 
concerned if many people buy EVs as we would like to see. And I 
think that everybody would like to see it.
    The Chevrolet Bolt EV is the first commercially available 
mass market affordable electric car. How will your deployment 
of the Bolt in ridesharing applications like Maven Gig help lay 
the groundwork for both the deployment of self-driving, but 
perhaps also increase down the road people's confidence in EVs?
    Mr. Kosak. Yes, I mean I think the answer is very directly. 
In this application in California, as I mentioned earlier, the 
number of miles covered in these vehicles on average is four 
times what personally owned EVs are covering. And so it is 
really pushing the limit.
    Really there is a chicken and egg problem right now with 
electric vehicles and with charging infrastructure. No one 
wants to put charging infrastructure place until people by EVs, 
and people don't want to buy EVs until there is electrical 
charging infrastructure in place. And with this deployment we 
are pushing the boundary. We are going to charging station 
installers and electric utilities. We are demonstrating the 
level of demand that you can generate with a ridesharing 
service. That is an incentive for them to put in place charging 
infrastructure. And then I think privately owned vehicles will, 
will sort of draft in behind that.
    I also think it is a highly visible application of EVs. You 
know, the drivers can't believe how much they are able to 
drive. And they are able to get 160 miles of charge in just an 
hour with a charger. So we have a lot of cases where people are 
getting into the back of these cars during ridesharing and they 
are saying, ``What is this?'' And it gets this dialog going 
around just how capable and cool EVs can be.
    So, I think by from both a visibility perspective and then 
also from driving and infrastructure installation perspective 
it is having a direct impact.
    Mrs. Dingell. Thank you.
    Thank you, Mr. Chairman.
    Mr. Latta. Thank you very much. The lady's time has 
expired.
    The Chair now recognizes the gentleman from Texas, the 
former chair of the subcommittee, for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman, and thank you for 
having this hearing today.
    Before I get started with my questions I just want to 
acknowledge the participation of constituents from the 
district, the good folks at Network Thermostat, who 
participated in our Internet of Things Showcase downstairs.
    And, Mr. Chairman, I also have to say I had occasion to be 
up very early this morning and you have had staff who were on 
the job getting things ready at a very early hour. So, 
congratulations to you on motivating your highly efficient 
staff to be so attentive.
    Dr. Marras, I wasn't going to ask you this but now I have 
been provoked by one of Ms. Schakowsky's questions on the issue 
of data collection and data sharing. And this was a big part of 
another bill that this, not this subcommittee but this 
committee did, called Cures for the 21st Century. And this is a 
way we deal with data and the interoperability of data. And you 
have touched on that in your testimony. In fact, I really like 
the fact that you laid out enumerating how can Congress help 
with what you have identified as a problem.
    So you spoke to it a little bit when you answered Ms. 
Schakowsky's questions of difficulties you run up against with 
the institutional review boards and data collection, but could 
you just expound upon that a little bit?
    Dr. Marras. Yes. Thank you for the question.
    It is very, it is very difficult to get through the burden 
of the layers and layers and layers and layers of protection 
that are involved with patient data. Now, I fully agree we need 
patient data. And I always thought it was a whole lot easier 
than what it is to get through this to build these databases 
that we really need to understand spine disorders.
    But, like I said, it has taken us a matter of years to get 
access to the data we need because of the way the laws are set 
up.
    Mr. Burgess. So, you are building a database of biometrics 
and biomechanics that could be enormously useful for people who 
are studying in this field, and a database that probably hasn't 
existed before you put pen to paper to try to create it. And I 
am sure there are other applications in other areas of 
medicine. But it, it is difficult.
    And I think we, you know, again when we worked on the Cures 
bill we identified some of those difficulties. But it is so 
massively important that the people who are able to accumulate 
and categorize and the encyclopedia that you build off of 
biomechanics is going to inform future physicians and 
scientists in a way that is almost unimaginable now.
    Dr. Marras. Exactly. And, you know, I agree totally with 
the spirit of the law. But the way it is, the way it works and 
to gain access to the data you need to build our databases is 
just extremely burdensome. And as we all know, funding for 
these types of studies is extremely tight. And one has to jump 
through many, many, many, many hurdles in order to get access 
to the data that we really need. It is not impossible, but it's 
just----
    Mr. Burgess. Right.
    Dr. Marras [continuing]. Extremely difficult.
    Mr. Burgess. I am glad that there are bright people such as 
yourself that are working on this because the future 
generations will thank you.
    Mr. Kuhns, I just wanted to, first off, acknowledge in your 
testimony, your written testimony, acknowledge the amount of 
chaos that is in this environment. So that can be a positive 
thing. And some of us live with more or less amounts of chaos 
in their lives. And chaos can be a driving factor in 
creativity.
    One of the things I really liked about your testimony is 
you referenced the 2015 hearing that we had on this, on this 
same subject. And I just wanted to take a moment and quote the 
last concluding thought from my opening statement that morning. 
``In our examination of privacy and security issues, it is 
important that we balance these concerns with the creativity 
and innovation driving this market forward. Too much potential 
for economic progress and consumer welfare is at stake to act 
without a full appreciation for what this market can offer.''
    Those words were true 2 years ago; they are true still 
today. So I thank you for reminding me how, the important work 
that we are doing.
    And then, finally, Mr. Kosak, on the issue of the child in 
the hot car. I do want to encourage you. When I first learned 
about OnStar many, many years ago that was one of the first 
things that crossed my mind: here is a technology that if it 
could detect a life form in the car, whether it be a child or a 
pet or an elderly person who was left in the car that now is 
achieving a temperature that is incompatible with future 
existence, that something ought to happen, and somebody ought 
to be notified, and either the horn honk, or the windows come 
down or the lights flash. So I have always felt that that is 
something that is technologically within our grasp.
    So, I am grateful that your scientists are working on it. I 
think it is important. And I just don't recall a problem 
occurring in the 1950s and '60s. Maybe it did and we just 
weren't aware of it because it wasn't reported. Or maybe there 
is something different about the technology we have in our 
vehicles now that make our children more susceptible to this 
type of accident.
    But I am grateful that you are working on it. I think it is 
an important concept, and one that really just begs for a 
solution. And now to listen to your thoughts on that.
    Mr. Kosak. Well, thank you very much for the comment. I 
agree. I mean I think that is a good example where you can 
demonstrate the power of connectivity and then communicating 
important things.
    We have been using, you know, passenger-side occupant 
sensors for some time for not only sensing an airbag, sensing 
an occupant to make sure that seatbelts are worn or to relate 
to the airbag system itself to judge the size of the occupant 
and all of that. So, I think that identifying these issues and 
then using the power of technology to solve problems is 
something that we are thinking about every day.
    Mr. Burgess. Thank you, Mr. Chairman. I yield back.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired.
    The Chair now recognizes the gentleman from California for 
5 minutes.
    Mr. Cardenas. Thank you very much, Chairman and Ranking 
Member, for having this hearing.
    Mr. Javdani, as you mentioned in your testimony, Louroe 
Electronics has partnered with the U.S. Commercial Service. 
Louroe has been recognized by the U.S. Department of Commerce, 
and you have also worked with American embassies to bring 
American products to other countries. How has Government 
investment affected Louroe Electronics' ability to grow?
    Mr. Javdani. Thank you, Congressman. There are a number of 
programs that we take advantage of with Government investment. 
As you mentioned the work with the U.S. Commercial Service, we 
have participated in a handful of trade missions to 
international markets, noticeably to Latin America. And the 
work that the Commercial Service provides to us in those 
markets is introducing us to potentially interested customers.
    These types of customers are at a very high level. I like 
to say that I could cold call for 10 years and not get these 
kinds of appointments. And through the influence our embassies 
have internationally, we get an audience right away.
    Secondly, we work with a group CMTC, California 
Manufacturing Technology Consulting, to help us optimize our 
production process, our planning process, our innovation 
process. CMTC is an organization with funding from NIST and 
also MEP, the Manufacturing Extension Partnership. Through our 
work with them we have found ways to reduce the operating costs 
of manufacturing, improve our forecasting methodology so that 
we have fewer dollars tied up in both raw materials and 
finished goods. And we use those dollars then to invest in R&D, 
in pursuing new IoT-related technologies.
    So, as Dr. Butler mentioned moments ago, when we look at 
the new types of jobs being created, what Louroe Electronics is 
finding is that our investments into R&D increases our need for 
computer scientists or coders or the types of jobs that are 
specific to IoT fields, as opposed to more traditional analog 
electronics or other types of manufacturing.
    Mr. Cardenas. Thank you.
    Gentlemen, when it comes to much of what is driving private 
industry in the Internet of Things, does much of it have to do 
with increasing productivity for the end user, and also 
increased safety for the end user? Are those two driving 
factors? Because when I was out there looking at many of the 
products around the corner here with the displays that are 
going on, that seemed to be two main themes, whether it is 
vehicles or something with intelligence in it.
    Mr. Javdani. I can briefly speak to that. What we find is 
that most of the work that goes into an analysis or process can 
be automated. So productivity can increase because the time 
that would have been needed to conduct review of certain data 
is now automated. So that frees up worker time for other, other 
items.
    Mr. Kosak. If I just--oh, sorry.
    Mr. Cardenas. Go ahead. Yes.
    Mr. Kosak. If I could just add to that, I think maybe the 
ultimate example of that is autonomous vehicles where, you 
know, they see better and they see more than human drivers. And 
by networking them together you can create vastly safer systems 
for personal mobility overall.
    Mr. Cardenas. So, efficiency, increased productivity again 
a common theme; right?
    Mr. Kosak. Yes. Efficiency in group management and safety, 
and just better sensing and response.
    Mr. Cardenas. And, again, safety as well, some two major 
themes.
    And I have a tongue-in-cheek question. Is the Internet of 
Things, does it tend to be a male-dominated environment, 
gentlemen? What does the diversity look like?
    Half the population of this country are women, and yet, at 
the same time when it comes to technology and certain 
environments, or what have you, we find that it seems to be 
mostly men hanging out in that environment. What is the 
industry doing that you are aware of, or what are you involved 
in directly that is trying to make sure you are cognizant of 
that?
    And matter of fact, I saw something recently where a very 
famous man, Warren Buffett, said, I have tremendous confidence 
in the U.S. economy. And he was commenting about how his 
sisters are just as smart as him, his sisters are just as 
capable as him, but he was the guy in the family so he was the 
one that got to rise to being this famous, incredible 
entrepreneur. And yet, he was saying, you know, my sisters are 
just as capable as me, but the environment nurtured me to be 
the guy instead of my sisters. And then the main point that he 
made, he said, I have tremendous confidence in the United 
States economy, because look at what we have done with only 
truly taking advantage of half of our workforce, half of our 
resources.
    In other words, he is pointing out the fact that if we 
include women and we are cognizant of that, maybe we will be 
even more successful, maybe we will be more innovative, maybe 
we will advance quicker, faster, better.
    Any comments?
    Dr. Marras. I think it is beginning to change. I think it 
goes back to our educational system. You know, I am, my primary 
appointment is in an engineering college. And, you know, some 
of the----
    Mr. Cardenas. I am an engineer, too. And I remember in 
those classes women, very smart on campus, just weren't in 
class with me.
    Dr. Marras. And there, especially those in biomedical 
engineering, care more about people. You're starting to see 
more and more of them. It is just a slow change.
    Mr. Cardenas. Well, my time is up. But if you can share 
sometime today about maybe some activities that are going on to 
increase that awareness and make that difference.
    Thank you, Mr. Chairman.
    Mr. Latta. Thank you very much. The gentleman yields back.
    The Chair now recognizes the gentleman from New Jersey for 
5 minutes.
    Mr. Lance. Thank you, Mr. Chairman. And good morning to the 
panel. Thank you for your testimony.
    Later this afternoon I am meeting with the Christopher and 
Dana Reeve Foundation, located in Short Hills, New Jersey, in 
the district I serve. So I am particularly interested in Dr. 
Marras' testimony regarding your fine work at the Spine 
Research Institute.
    Dr. Butler, can you please explain how connected devices 
and Internet connectivity capability have affected your 
business?
    Dr. Butler. It certainly has put us now in a position to 
scale our business. I think it is a tremendous opportunity, 
again, across multiple markets. So it allows us to scale in a 
variety of different industries beyond some core industries 
that, that we are focused on today.
    I think if you look at the make-up of the workforce that we 
have in our company today, again as I mentioned to Congressman 
Harper earlier, we have product developers, electrical 
engineers, mechanical engineers, industrial engineers, but we 
also have software developers. We also have service people that 
support the service side of our business and sales, marketing 
and, of course, finance.
    And I think that over time, as we scale our business we 
will scale in all facets of that business. And so I think in 
terms of creating more job opportunities in the United States, 
if we are the leader in this industry and we are the provider 
of these technologies and services to the global economy, we 
will see job creation across that entire spectrum of our 
workforce.
    Mr. Lance. And have you seen increases in employment in 
recent times?
    Dr. Butler. Yes. And we are, we are hiring now. We plan to 
hire a number of new engineers as it relates to percentage of 
our total employee base by the end of this year. So we are, we 
are growing on the back of the IoT industry at this point.
    Mr. Lance. And regarding employment of engineers, is there 
a flow from our graduate schools regarding engineers in this 
country?
    Dr. Butler. Yes. I think for us it is a combination of 
both: we hire new college graduates and we also hire more 
experienced engineers as well. A lot of times we look to hire 
experienced engineers to take on new project management roles 
and leadership roles in the organization. And then we bring in 
new college graduates to work with those more experienced 
engineers as part of our product development program. So I 
think it is really a combination of both.
    Mr. Lance. Thank you.
    Dr. Bachman, can you explain, please, how the collection of 
data from installed devices can be used to optimize business 
practices and operations?
    Dr. Bachman. Yes, sir. Most of the operations we do, we 
really don't know what is going on. We are assuming that our 
machines are working the way they are supposed to work, and so 
forth. If we can monitor them, then we know when things aren't 
working the way they should.
    And, so, at the very beginning of IoT the value was seen as 
in predictive maintenance and making sure that things are 
working the way they should. But it goes beyond that, because 
when you have that data and you can correlate against other 
things, things that you may not even think are relevant, like 
the weather, for example, or where the trucks are on the 
highway, you discover all kinds of patterns that we would 
normally not understand. And you can leverage that information 
to improve your operations, whether you are turning your lights 
off 10 minutes sooner, or maybe you are changing which 
warehouses you are going to be using.
    It is the aggregation of many different types of data from 
many different sources that really brings the true value of 
IoT. So, when I talk to people, the easiest thing we understand 
is, yes, I can see where my pipes are leaking. That is 
valuable; right? That is a very obvious example.
    But the way I describe it, it is like a chess game, you 
have many, many different things going on. And if you have data 
on all of that then you can optimize your chess game and you 
can do ever greater value that way.
    Mr. Lance. Thank you.
    And, Dr. Bachman, different people in different situations 
often define privacy differently. Do you think that the market 
is capable of addressing concerns related to privacy in the 
Internet of Things market over time?
    Dr. Bachman. This is an issue that is continually evolving, 
so there is no silver bullet that you can point to today. So, I 
think we have to recognize that, and recognize that this is 
going to be continuously a challenge that we are continuously 
solving.
    I will have to say that it is not just Internet of Things. 
So we get the benefit from the solutions of other industries, 
such as mobile connectivity or apps and so forth that are also 
addressed. And the biggest markets are in industry where 
privacy is not so much of an issue but security is an issue. 
And there is going to be a number of developments, of course, 
that we are all looking at, end-to-end encryption and, you 
know, better authentication and these types of things to 
prevent malicious break-ins.
    But, also, the business models are going to--at least at 
the beginning people are taking steps where security is less of 
a concern in the sense that they are analyzing data but they 
are not controlling machinery, for example, at this point.
    Mr. Lance. Thank you. My time has expired. Thank you, Mr. 
Chairman.
    Mr. Latta. Thank you very much.
    The Chair now recognizes the gentleman from West Virginia 
for 5 minutes.
    Mr. McKinley. And, thank you, Mr. Chairman. I might 
suggest, Mr. Chairman, that along this topic there was a great 
book published last year, in April of 2016, Stephen Chase wrote 
called ``The Third Wave.'' And it might be something we might 
try to encourage all the members of our committee to take a 
look at that to see, because he addressed this issue at least 
over 2 years ago and finally got his book published last year. 
But it is an excellent book about the possibilities that we 
have in this, ``The Third Wave,'' if you all happen to have 
read that.
    Mr. Kuhns, I have got a question of you, for you. Do you 
know whether or not the IoT provisions are being included 
within certification for LEED buildings? Do you know whether or 
not they have creeped into there to be one of those key 
factors?
    Mr. Kuhns. I don't know specifically with respect to LEED 
buildings. One of the problems is that IoT is kind of a general 
phrase that can be applied to almost any Internet-connected 
device. So what we are particularly more interested in is 
standards or best practices that relate to energy efficiency, 
to systems actually working, regardless of the technology and 
regardless of whether you label that as IoT.
    Mr. McKinley. OK. I just, I just would like to see us move 
into that.
    Mr. Kuhns. Yes.
    Mr. McKinley. I think it is an opportunity for people to 
get more LEED certification and to use our technology, the 
Internet of Things, to be able to do more higher efficiency 
buildings.
    Let me, just an overall concept of what I have heard all 
five, six of you in your presentation. This proliferation of 
Internet of Things, both in Chase's book and your own 
technology and what you have seen and how it has grown over the 
years, it seems like it opens the door for a virtual 
smorgasbord of bad actors and malware being developed. Because 
if, as the article said in USA Today this morning, if we can't 
even protect our electric grid, how do we think with all these 
smaller firms, how are we going to prevent someone from gaining 
access to our personal lives, whether it is the telephone or 
our cars or whatever that might be? What role can we do, should 
we be playing to try to correct that?
    Mr. Kuhns. So, let me just take it if I could. That is one 
of the points that I tried to make in my initial testimony.
    From where I sit, we can do as good a job as possible at 
making sure that our devices are secure and that default 
passwords are changed. In fact, we don't even use default 
passwords at all for that exact reason. But what is missing is 
if I am in my house and somebody is going around rattling the 
door, I can call the police and say, ``Hey, there is a bad guy 
trying to get in.''
    In the Internet people are rattling my doorknob hundreds of 
times per day and there is not really anyone I can call. I feel 
like we need a national or maybe international more effective 
law enforcement response. We need to have somebody looking at 
bad guys and tracking them down.
    I can give you a list of IP addresses in Ukraine that tried 
to get into our system today, but there is nobody to give it 
to. So, I see that as a, yes, we need both sides. We need to 
have better door locks, but we need to have somebody tracking 
down the bad guys and doing something about it.
    Mr. McKinley. OK, thank you. And I hope the rest of you get 
back to us. I would like to hear from your perspective because 
if our utilities can't prevent it, I wonder about individual 
firms that don't have that.
    Mr. Kosak, back to you. Because I really thought Ms. 
Schakowsky hit a homerun with her question. A second, follow-up 
question I think would be just as fundamentally is if we 
believe, if we think there is a predicate for using seatbelts, 
why are we able to operate our vehicles without wearing a 
seatbelt?
    Mr. Kosak. Do you mean why isn't it----
    Mr. McKinley. Why manufacturers not putting a triggering 
mechanism in so that if it is so important why don't we go so 
fundamentally as the car can't start unless someone has a 
seatbelt on?
    Mr. Kosak. Well I, you know, I can't answer the broader 
societal question. I can say that we do a lot to strongly 
encourage in my----
    Mr. McKinley. A little bell comes on every--I know when my 
wife doesn't put her seatbelt in the car a little beep goes on. 
But if something is fundamental, if we say that is going to be 
something we can save lives and save energy and for healthcare 
if we would wear seatbelts, I am just curious why we have not 
done that.
    Mr. Kosak. Yes, I am not, I am not sure. But, again, the 
reminders are pretty relentless. And to some, you know, pretty 
irritating. But I think they have become more pervasive, you 
know, with we have identified more direct ways to communicate 
that are harder to ignore.
    Mr. McKinley. Thank you. My time has expired.
    Mr. Latta. Thank you. The gentleman's time has expired.
    And the Chair now recognizes the gentleman from Florida for 
5 minutes.
     Mr. Bilirakis. Thank you. I appreciate it, Mr. Chairman.
    Dr. Marras, can you please explain how the use of 
innovative technology in IoT has contributed to the work being 
done at the Spinal Research Institute? And I would like to, if 
you could tell me a little bit on how you have helped maybe 
possibly veterans, you know, that have spinal chord injuries as 
well with this technology.
    Dr. Marras. Yes. So the IoT basically allows us to marry 
information from wearable sensors that talk about how you move, 
with information from data we could get, for example, of 
veterans', like, prostheses and things like that and how they 
hit the floor, with information about how they recruit their 
muscles. And the IoT marries that information with our models. 
And our models are distributed amongst many different sources, 
so we could download anatomy from databases, we could download 
architecture and reverse engineer a person's spine.
    And it basically allows us to communicate in a very, very 
efficient way which if you were doing this by hand would take 
you, you know, months compared to what takes now seconds. As a 
matter of fact, our models used to take months to build, and 
now we can build a model of a person in seconds. And it helps 
us understand what is unique about that person, how much tissue 
loading is too much tissue loading, and what needs to be done 
to help fix that.
    And I should also say we don't focus on spinal chords, we 
focus on spines.
    Mr. Bilirakis. OK, very good. Thank you.
    Dr. Bachman, can you please speak to how privacy concerns 
are being addressed by industry, especially as we see the 
number of IoT applications increasing rapidly?
    Dr. Bachman. So, I think privacy, especially for consumer-
facing products is a big concern for everyone. And I think 
what, what I am seeing is that there is no single standard way 
to address that. And, in fact, most of the devices that I am 
familiar with follow pretty much the mobile phone model. They 
basically consider themselves a mobile phone without a front 
face on it.
    So there is no, there is no single solution other than what 
is already being done for mobile devices. However, there is a 
lot of good ideas that are being discussed, for example, things 
like end-to-end encryption, things like better authentication. 
I think we would benefit greatly from standards that sort of 
lay out what is considered a safe device and what is not 
considered a safe device.
    Also, we would benefit greatly if we could have independent 
watch dogs, for example, that indicate these products are 
considered safe and these aren't; sort of an Energy Star type 
of certification. I think that would really help, actually, 
everyone, not only the consumers but also the industry because 
when we have the trust of the consumer then we can sell our 
products to them. But if people feel like we are stealing their 
information, then they are not going to buy our products. So, 
some sort of independent certification or eye on this would 
actually help us a lot.
    The other thing is I think one last thing I want to mention 
because this is something that we don't have any requirement to 
do, but if we were to build an IoT device, we have no 
requirement to disclose what data we are collecting. And I 
think it would be very helpful if there was such a requirement. 
Because when you buy a product, even if it is completely secure 
and no one can hack in, you don't know how much data it is 
collecting, when it is collecting, and what it is sending to 
the owner that, to the company that is selling you that. They 
may be selling your information to other people.
    At least in the apps we are used to having to sign an end 
user license agreement, and in devices we don't have to do 
that. So I think it would be useful to have some sort of 
requirement of disclosure, even if it's a voluntary with a 
star, you know, with a certificate or something like that 
associated with it.
    Mr. Bilirakis. OK, thank you very much.
    Dr. Butler, is there anything we can do as policy makers to 
promote the growth of industrial IoT? Dr. Butler.
    Dr. Butler. Yes, I think there are a few things. I think, 
number one, continue to work with organizations like the IIC 
and the OIC, the consortium, that are today looking at, looking 
at how to grow the industrial IoT space. I think, as I 
mentioned earlier today, I think adoption would be great. I 
think the opportunity for adoption within the Federal space 
today is significant. And I think if we look back historically 
on how the internet came to pass and its growth, the Federal 
Government was instrumental in that in terms of developing the 
ARPANET and the NSF funding that went along with that to serve 
as a catalyst. So, I think adoption in certain areas.
    And then I also think funding research and developments in 
the key areas to provide competitive advantage. And I think a 
light regulatory touch to promote innovation.
    Mr. Bilirakis. Very good. Thank you.
    Anyone else, I have got, well, got--no, I am over. I am 
over, Mr. Chairman. I yield back. Thank you.
    Mr. Latta. OK. The gentleman yields back.
    The Chair now recognizes the gentleman from Oklahoma for 5 
minutes.
    Mr. Mullin. Thank you, Mr. Chairman. And thank you to the 
whole panel for being here today.
    Although I don't consider myself a tech-savvy individual, I 
do realize that technology is in a lot of cases making our 
lives easier and saving lives at the same time. We are talking 
about the new technology of detecting when we leave a child in 
a car seat.
    I can tell you, my wife and I, we have five kids, and they 
age from right now 13 to 6. But when we had just had our twins, 
we jumped out at church and walked into the church and 
immediately realized we left our 4-year-old daughter in the car 
seat. I mean, it was less than probably 2 minutes and, 
fortunately, it wasn't hot that day, it was this beautiful fall 
day, but it can happen. It can happen just like that. And any 
parent that has had young kids knows that that can happen 
quickly. And that is where technology comes in.
    And so we appreciate all you all being here.
    Dr. Marr-uss--is that how you say it?
    Dr. Marras. Mare-iss.
    Mr. Mullin. Mare-iss. Dr. Marras, thank you for being here. 
I understand the technology to which you are looking into right 
now is to protect backs, spinal injuries. A question that I 
have, I come from, you know, a very athletic background and 
fought professionally for a few years. And, ironically, I am 
limping today. I have no idea what I did to my back. But it can 
happen tomorrow.
    My wife who her and I are going to be celebrating our 20th 
anniversary tomorrow--I got to throw that in there by the way, 
Chairman, I have to throw that--you know, 20 years is a big 
task----
    Mr. Latta. Oh, our anniversary is tomorrow. It is 31.
    Mr. Mullin. Oh, 31, is it? I am not going to say my wife 
can make 31 years with me. I couldn't have made two.
    But she is very athletic. And she was working out the other 
day and literally just bent over to grab a weight and hurt her 
back for the first time ever. The technology that you are 
having I know can help, you know, diagnose to some degree of 
what is causing that and the movements that cause it.
    Specifically what I wanted to talk about, though, is moving 
into the realm of professional sports, but moving into the 
realm of even the smaller kids, is it possible that this band 
that you are having, I guess that wears on your wrist, is that 
where you are moving to; is that right?
    Dr. Marras. Not exactly. It is on the spine.
    Mr. Mullin. On the spine.
    Dr. Marras. Yes.
    Mr. Mullin. Is it possible for you to build it to detect it 
in athletes and programs and knowing the pressure, the pressure 
points? Because maybe we can change some of the techniques that 
we are showing that can prevent a lot of this.
    Dr. Marras. As a former college athlete I am very sensitive 
to your question. And I have experienced all kinds of problems 
myself. The thing that is unique about the spine is you don't 
know when damage is occurring. Typically in the spine, when you 
have serious problems it occurs in the disk. And the disk is 
very atypical because there are not very many what is called 
nerve endings in the disk. You really can't feel what is going 
on until it is too late.
    And so with our technology, by bringing people into our 
laboratory and putting smart sensors on them and building 
models of how they are responding to this, we could pinpoint 
how much is too much exposure to whatever, including sports. As 
a matter of fact, we have had some experience doing this with 
golfers. And when you think about golfing, you are holding a 
club that weighs just a few ounces, yet the loads on the spine 
can be tremendous. We have to get to that level of detail and 
look inside the body before we understand how much is too much. 
And that is what we try and offer.
    Mr. Mullin. So is this, is this more looking towards the 
period of rest that, say, hey, after you do this so long maybe 
you should rest a certain time?
    Dr. Marras. Yes, it could be that. But we prefer to look at 
it as maybe you shouldn't be using that technique that is 
damaging the spine. And there might be better ways to go about 
doing you work or doing your sports.
    Mr. Mullin. With the technology that you are having, is 
someone capable of wearing it while they play the sport? And I 
am not saying necessarily golf because that is a sport I don't 
even begin to try. There is limits to what I am able to do.
    Dr. Marras. Yes, so, you know, we are talking about really 
a variety of technologies here. And some of them, yes, can be 
worn on the field. Other ones you would have to simulate the 
game in our laboratory. But at the end of the day we need to 
compare it against what are normal loads in the spine and what 
are abnormal loads in the spine. And that is how we understand 
when you are doing damage.
    Mr. Mullin. Well, thank you for the technology you are 
looking into. I think it is going to pay huge dividends and on 
a lot of professional athletes moving down the road. So, thank 
you so much.
    Mr. Chairman, I yield back.
    Mr. Latta. The gentleman yields back.
    The Chair now recognizes the gentleman from Pennsylvania 
for 5 minutes.
    Mr. Costello. Thank you.
    I just, Dr. Marras, wanted to follow up on some of the 
dialog you had with Mr. Bilirakis about how the predictability 
tool would impact healthcare costs. And I understand that is 
your thing, spines. Perhaps you could share how that 
application might be applied in the healthcare realm with other 
types of surgery.
    And do you ultimately think that it will mean reduced 
healthcare costs or avoided healthcare costs? I would be 
curious for you to just speak on that to the extent that you 
would like.
    Dr. Marras. Well, thank you for that question. It is a 
great question.
     If you look at healthcare costs associated in the spines, 
we spend more money treating people for spine disorders than we 
spend treating people for cancer. So, we are talking about 
enormous numbers. And if you look at medicine applied to the 
spine, it is more of an art as opposed to a quantitative 
science.
    And what we are trying to bring to the table is a way to 
quantify what physicians are facing. We are not trying to do 
medicine; we are trying to give them the tools to make it more 
quantitative and more precise. Because the way it works now 
when you have a spine disorder is, you know, your back hurts. 
You go see your doctor. They are not really sure what is going 
on. You go see, get an MRI. And the MRI might cost you 1,500 
bucks, and it has got about a 10 to 15 percent chance of 
telling you what is wrong.
    And so then they will send you to physical therapy. And if 
that doesn't work, then they will send you to, you know, get 
injections. And at the end of the trail are surgeries. But it 
is trial and error. And that gets very, very expensive.
     What we are bringing to the table is the ability to 
quantify what precisely is wrong with that person. And only 
change what you need to change. And in that way we think it is 
going to be very, very cost effective and allow people to get 
the kind of, go directly to the kind of treatment that they 
want as opposed to this long slog of try this, try that, as it 
is exacerbating over time.
    Mr. Costello. Right. And I found your testimony very 
compelling.
    Do you have any sense of how you, from an analytical 
perspective, how much you may be able to reduce the number of 
types of procedures or testing that will be avoided as a result 
of the application that you could provide? And what about other 
types of surgeries or ailments that there might be something 
more preventative or more preemptive that could be done as a 
consequence of the type of application that you have and the 
type of technology that is available?
    Dr. Marras. Well, our technology allows us to actually do 
virtual surgeries on people. We could build a model of a 
particular patient's spine, along with all their nooks and 
crannies, and all the individual components of their problem, 
and figure out exactly what surgery that person needs. Because 
right now surgeries are, you know, throughout the country 
probably about effective less than 50 percent of the time. And 
that gets very expensive.
    Mr. Costello. How are insurance companies responding to 
this?
    Dr. Marras. Well, we are----
    Mr. Costello. Or not responding to this.
    Dr. Marras. Yes. They are tightening up on what they are 
allowing because there has been a lot of abuse of surgery over 
the years. A lot of times people go right to the surgery as 
opposed to seeing exactly what is wrong with the person. And 
they tend to, for a lot of surgeons, they do more surgery than 
what is necessary.
    Mr. Costello. Dr. Bachman. Thank you. Dr. Bachman, zero 
power technology, National Science Foundation funding. The 
question that I have is you speak to your involvement with NSF 
and its support, and its role in supporting IoT--couple 
acronyms there--and are you aware of the need or any 
opportunity to update or expand Federal grant funding language 
as a consequence of the emerging role of IoT?
    Dr. Bachman. Yes, sir. We are funded by the NSF to develop 
zero power sensing. That means you can create a sensor, put it 
somewhere, and not have to create the batteries or not have to 
hook up to a cable, which is extremely valuable for a lot of 
remote sensing applications. That kind of technology is not 
something you buy off the shelf. It is a very advanced 
technology, so it requires sort of fundamental work. And that 
is where organizations like the National Science Foundation are 
very helpful.
    I do think it is helpful that they do frame what they are 
funding in the sense of a market such as IoT because it helps 
guide the research to be a little bit more focused on the 
application. And that has been helpful for me, because 
otherwise we may just develop something that can't be turned 
into an actual product. And we actually want to turn these into 
products to make things better.
    So I do, I do like the fact that we frame the--and 
certainly NSF has helped me do that, frame what they are 
funding in terms of market applications. Although I would hate 
to lose the spirit of, you know, free thought and, you know, 
truly basic research that they support as well.
    Mr. Costello. Thank you. And as my questions, if you have 
any follow-up, anything else comes into mind or any other 
gentlemen on the panel that want to offer any comments on those 
questions, I would certainly encourage you to do so in writing.
    Thank you. I yield back.
    Mr. Latta. Thank you very much. The gentleman yields back.
    And the Chair recognizes the gentlelady from Illinois.
    Ms. Schakowsky. Thank you, Mr. Chairman. I just wanted to 
enter unanimous consent to enter into the record a statement 
from the Electronic Privacy Information Center.
    Mr. Latta. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Latta. And seeing no other members here to ask 
questions, I want to thank all of our witnesses today for 
participating. You know, when you all were across the hall at 
the Internet of Things Showcase, there is great interest and 
there is excitement there, and I think people really see the 
future right now today. And when we look at the estimate there 
could be 50 billion devices interconnected out there by 2025, 
we know where we are heading.
    And so I really appreciate your testimony today.
    And pursuant to committee rules, I remind members that they 
have ten business days to submit additional questions for the 
record. And I ask that the witnesses submit their responses 
within ten business days upon receipt of the questions.
    And before I adjourn the subcommittee, I just want to again 
thank the committee staffs for all the hard work that they did 
in preparing for the Internet of Things Showcase because, 
again, it was a great success, and I appreciate it.
    And without objection, the subcommittee is adjourned. Thank 
you very much.
    [Whereupon, at 12:27 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
                                 <all>
</pre></body></html>
